HHS/OIG-Audit--"Audit of the Washington State Migrant Council, Sunnyside, Washington, (A-10-99-00050)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Washington State Migrant Council, Sunnyside, Washington," (A-10-99-00050)
May 19, 2000
Complete
Text of Report is available in PDF format (1.32 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit of the Washington State Migrant Council (Council) was made to address certain specific issues of concern to
officials of the Head Start Bureau, Administration for Children and Families. The audit disclosed that the Council, with
about $20 million in State and Federal funds in 1997, did not (1) have an acceptable cost allocation system for ensuring
that costs were allocated reasonably among the various State and Federal programs it operated, (ii) maintain acceptable
financial and program management systems required by Federal regulations, (iii) meet its nonfederal matching (cost-sharing)
requirement, or (iv) adequately involve its Board of Directors in the management, direction and control of the business
activities of the Council. The majority of the costs claimed for reimbursement under the Migrant Head Start program could
not be supported based on requirements of OMB Circular A-122. The audit report contains a number of specific recommendations
to address the deficiencies in the areas summarized above.